Case: 20-2215

Document: 8

Filed: 07/23/2020

Pages: 1

Umiefr States (Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604

July 23, 2020
Before:
Daniel A. Manion, Circuit Judge
David F. Hamilton, Circuit Judge
Michael B. Brennan, Circuit Judge

BRENDA L. WHITE,
Plaintiff-Appellant,
No. 20-2215

v.

TAVEL,
Defendant-Appellee.

] Appeal from the United
] States District Court
] for the Southern District
] of Indiana, Indianapolis
] Division.
]
] No. 1:20-cv-00874-JMS-TAB
]
] Jane Magnus-Stinson,
]
Chief Judge.

ORDER
On consideration of the papers filed in this case and review of the short record,
IT IS ORDERED that this appeal is DISMISSED for lack of jurisdiction.
Rule 4(a) of the Federal Rules of Appellate Procedure requires that a notice of
appeal in a civil case be filed in the district court within 30 days of the entry of the
judgment or order appealed. In this case judgment was entered on May 29, 2020, and
the notice of appeal was filed on July 7, 2020, eight days late. The district court has not
granted an extension of the appeal period, see Rule 4(a)(5), and this court is not
empowered to do so, see Fed. R. App. P. 26(b).

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
BRENDA L. WHITE,

)
)
)
) )
)
)
)

Plaintiff,
v.
TAVEL,
Defendant.

No. 1:20-cv-00874-JMS-TAB

ENTRY GRANTING MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS.
SCREENING COMPLAINT. AND DIRECTING FURTHER PROCEEDINGS
Pending before the Court are Plaintiff Brenda L. White’s Complaint, TFiling No. 11. and
Motion to Proceed In Forma Pauperis, [Filing No. 21. This Order first addresses Ms. White’s
Motion to Proceed In Forma Pauperis, then screens her Complaint pursuant to 28 U.S.C. §
1915(e)(2), and directs further proceedings.
T.

Motion to Proceed In Forma Pauperis
28 LT.S.C. § 1915(a) permits the Court to authorize a plaintiff to file a lawsuit “without
prepayment of fees” if the plaintiff “submits an affidavit” demonstrating that she lacks the assets
to pay the filing fee at this time. 28 U.S.C. § 1915(a)(1). Ms. White’s Motion to Proceed In Forma
Pauperis, [2], meets this standard and is therefore GRANTED. 28 U.S.C. § 1915(a).
The Court notes that, while in forma pauperis status allows the plaintiff to proceed without
pre-payment of the filing fee, the plaintiff remains liable for the full fee. Robbins v. Switzer, 104
F.3d 895, 898 (7th Cir. 1997) (Every in forma pauperis litigant is liable for the filing fee; “all [18
U.S.C.] § 1915(a) does for any litigant is excuse the pre-payment of fees”) (emphasis in original).
The Court does not have the authority to waive the filing fee, and it remains due despite plaintiffs
in forma pauperis status. Fiorito v. Samuels, 2016 WL 3636968, *2 (C.D. Ill. 2016) (“The Court
1

does not have the authority to waive a filing fee”); McDaniel v. Meisner, 2015 WL 4773135, *5
(E.D. Wis. 2015) (same principle). The filing fee for in forma pauperis litigants is $350. See
USDC Fee Schedule at https://www.insd.uscourts.gov/fees-financial-information (stating that the
$400 filing fee includes a $50 administrative fee, but that the administrative fee “does not apply
to...persons granted in forma pauperis status under 28 U.S.C. § 1915”). Immediate payment is
not required; however, the $350 balance remains owing.
II.
Screening
A. Screening Standard
Pursuant to 28 U.S.C. § 1915(e)(2), the Court shall dismiss a case brought by a plaintiff
proceeding 'informa pauperis “at any time if the court determines that... the action.. .is frivolous
or malicious;... fails to state a claim on which relief may be granted; Or... seeks monetary relief
against a defendant who is immune from such relief.” In determining whether a complaint states
a claim, the Court applies the same standard as when addressing a motion to dismiss under Federal
Rule of Civil Procedure 12(b)(6). See Lagerstrom v. Kingston, 463 F.3d 621, 624 (7th Cir. 2006).
To survive dismissal:
[the] complaint must contain sufficient factual matter, accepted as true, to state a
claim for relief that is plausible on its face. A claim has facial plausibility when
the plaintiff pleads factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
B. Complaint
The following are the factual allegations in the Complaint, which the court must accept as
true at this time:
On November 14, 2019, Ms. White visited the Tavel eye care center located at 8139
Pendleton Pike in Lawrence, Indiana for an appointment. [Filing No. 1 at 5.1 During the
2

appointment, David Rich (presumably an employee or agent of Tavel) flipped on bright lights
directly into both of Ms. White’s eyes for approximately five seconds without first giving her any
warning that lie was about to do so. IFiling No. 1 at 5.1 This resulted in Ms. White’s eyes becoming
very sore, feeling as though they had been bruised. ITiling No. 1 at 5.1 Ms. White’s eyes still feel
sore several months later, although the amount of soreness has somewhat lessened over time.
[Filing No. 1 at 5.] After the incident, Ms. White contacted Tavel and spoke to the manager about
Mr. Rich’s actions; the manager defended Mr. Rich. [Filing No. 1 at 5.1 Ms. White then contacted
Tavel’s customer service department who told her that it would contact the Tavel location she
visited and would call Ms. White back. IFiling No. 1 at 5.1 However, Tavel customer service did
not contact Ms. White. IFiling No. 1 at 5.] Ms. White states that the incident “happened because
[she is] African-American.” IFiling No. 1 at 5.1 She states that such an incident has never
happened to her before in her fifty-five years of receiving eye care and she has “always been told
what is about to happen before it happens. And only one eye at a time.” IFiling No. 1 at 5.] Ms.
White seeks a judgment against Tavel for $1,000,000.00 “for the damage to [her] eyes, and for the
pain and suffering of the actions of David Rich and no consideration of Tavel.” [Filing No. 1 at
5.]
C. Discussion
“Federal courts are courts of limited jurisdiction” that “possess only that power authorized
by Constitution and statute.” Kokkonen v. Guardian Life Ins. Co. ofAm. ,511 U.S. 375,377 (1994).
“[T]he party invoking federal jurisdiction bears the burden of demonstrating its existence,” Hart
v. FedEx Ground Package Sys. Inc., 457 F.3d 675,679 (7th Cir. 2006), but “it is always a federal
court’s responsibility to ensure it has jurisdiction,” Hukic v. Aurora Loan Servs., 588 F.3d 420,
427 (7th Cir. 2009). “Subject-matter jurisdiction is the first question in every case, and if the court

3

concludes that it lacks jurisdiction it must proceed no further.” State ofIII. v. City ofChicago, 137
F.3d 474,478 (7th Cir. 1998). As such, before delving into the substance of Ms. White’s claims,
the Court must first determine whether it has jurisdiction to hear such claims to begin with.
There are two types of subject matter jurisdiction. “One circumstance in which federal
courts have original jurisdiction is when the lawsuit is between ‘citizens of different States’ and
the amount in controversy is over $75,000.” Hukic, 588 F.3d at 427 (citing 28 U.S.C. §
1332(a)(1)). Ms. White alleges that diversity of citizenship exists between her and Tavel. [Filing
No. 1 at 2.1 However, although she adequately alleges that she is a citizen of Indiana, she does not
properly allege the citizenship of Tavel. fFiling No. 1 at 3.1 Ms. White alleges that Tavel is
incorporated under the laws of “various” states, and then lists the address for the Tavel location
she visited, Which is in Indiana. [Filing No. 1 at 2-3.1 These jurisdictional allegations are
insufficient. If Tavel is a corporation, Ms. White needs to allege the state in which it is
incorporated and the State in which it has its principal place of business. 28 U.S.G. § 1332(c)(1).
If Tavel is a limited liability company or some other unincorporated entity, Ms. White needs to
allege the citizenship of each of the members of the organization. Wise v. Wachovia Sec., LLC,
450 F.3d 265, 267 (7th Cir. 2006). Further, if Tavel is, in fact, a citizen of Indiana, there would
not be diversity of citizenship in this case because Ms. White is also a citizen of Indiana. Because
Ms. White has failed to properly allege diversity of citizenship between the parties, it does not
appear to the Court that it may exercise jurisdiction on this basis.
This leaves federal question jurisdiction. “Under 28 U.S.C. § 1331, district courts have
federal question jurisdiction in civil cases ‘arising under the Constitution, laws, or treaties of the
United States.’” Napoleon’Hardwoods, Inc. v. Professionally Designed Benefits, Inc., 984 F.2d
821, 822 (7th Cir. 1993). Ms. White alleges that the incident occurred because she is African

4

American. To the extent that she is intending to assert a discrimination or civil rights claim, she
has not alleged any facts to demonstrate that Tavel is a state actor or violated any federal law. See,
e.g., London v. RBS Citizens, N.A., 600 F.3d 742,746 (7th Cir. 2010) (explaining that private actors
may be sued for civil rights violations under 42 U.S.C. § 1983 when they act “under color of state
law,” and not for “merely private conduct, no matter how discriminatory or wrongful”) (citation
omitted). For that reason, Ms. White’s potential federal claim against Tavel is dismissed.
Ms. White’s allegations most closely resemble a state law negligence or medical
malpractice claim, which this Court cannot consider in the absence of diversity jurisdiction.
Because there does not appear to be diversity of citizenship in this case, the Court has no
jurisdiction, and Ms. White’s claims are DISMISSED WITHOUT PREJUDICE.
The Court is mindful of Ms. White’s pro se status and its attendant duty to construe her
pleadings liberally. See e.g., Kiebala v. Boris, .928 F.3d 680, 684 (7th Cir. 2019). Nevertheless,
because Ms. White’s allegations do not indicate that this Court has subject matter jurisdiction over
this case, the Complaint must be dismissed. Consistent with the general policy that pro se litigants
should be given ample opportunity, to correct deficiencies, see id., Ms. White shall have until April
13,2020 to file an Amended Complaint that sets forth a basis for this Court to exercise jurisdiction
and provides “a short and plain statement of the claim showing that [she] is entitled to relief,” Fed.
R. Civ. P. 8.
III.
Conclusion
The Court, having considered the above action and the matters that are pending, makes the
following rulings:
1. Plaintiffs request to proceed in forma pauperis, [2], is GRANTED.
2. Plaintiff s Complaint is DISMISSED WITHOUT PREJUDICE. [1]
5

3. Ms. White shall have until April 13,2020 to file an Amended Complaint that addresses
the deficiencies in this Order and otherwise complies with federal pleading standards.
Failure to do so may result in dismissal of this case for lack ofjurisdiction and without
prejudice to her filing her claims in state court.

Date: 3/20/2020
(Hon. Jane Magntts-Stirtson, ChiefJudge
United States District Court
Southern District of Indiana

Distribution via U.S. Mail to:
BRENDA L. WHITE
414 IN Ridgeview Drive
Indianapolis, IN 46226

6

Additional material
from this filing is
available in the
Clerk's Office.

